           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


           FOLLOW-UP: THE
  SOCIAL SECURITY ADMINISTRATION’S
     CONTROLS OVER THE TITLE XVI
    OVERPAYMENT WAIVER PROCESS

    September 2009   A-06-08-18078




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                    SOCIAL SECURITY
MEMORANDUM

Date:   September 3, 2009                                                           Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Follow-up: The Social Security Administration's Controls over the Title XVI
        Overpayment Waiver Process (A-06-08-18078)


        OBJECTIVE
        Our objective was to determine whether the Social Security Administration (SSA)
        corrected discrepancies identified in our October 2004 report, Social Security
        Administration’s Controls Over the Title XVI Overpayment Waiver Process.

        BACKGROUND

        Title XVI of the Social Security Act established the Supplemental Security Income (SSI)
        program effective January 1, 1974. 1 SSI provides a minimum level of income for people
        who are age 65 or older or who are blind or disabled and who do not have sufficient
        income and resources to maintain a standard of living at the established Federal
        minimum income level. 2 SSA relies on beneficiary self-disclosure of resources and
        earnings, as well as computer matching from other Federal and State agencies, to
        determine eligibility and compute monthly payments. Financial resources and earnings
        may vary by month. Consequently, SSI payments can be error-prone and may result in
        overpayments. Under certain situations when the recipient is not at fault, SSA will grant
        an overpayment waiver. The waiver relieves the individual from further liability for the
        overpayment. Recovery of an overpayment may be waived, if such recovery would be
        against equity and good conscience, impedes effective or efficient administration of title
        XVI because of the small amount involved, or defeats the purpose of the SSI program. 3
        Appendix B provides additional background on SSI overpayment waiver procedures.




        1
            20 C.F.R. § 416.101.
        2
            20 C.F.R. § 416.110.
        3
            20 C.F.R. § 416.550.
Page 2 - The Commissioner


Office of Management and Budget (OMB) Circular A-123 4 defines agencies’
stewardship responsibilities and management controls to protect programs from waste,
fraud, and mismanagement. Our 2004 audit found that even though SSA had
established policies and procedures that provided safeguards against fraud, waste, and
mismanagement of SSI overpayment waivers, they were not always implemented.
Specifically, for the waivers reviewed, our prior review found that documentation was
not available in case folders to support 51 percent of waiver decisions. In addition, SSA
was unable to provide case folders to support 11 percent of waiver decisions, and
7 percent of waiver decisions did not conform to SSA policy. We recommended that
SSA ensure (1) employees develop and maintain documentation for all waivers,
(2) employees properly develop fault and financial circumstances and discontinue
granting waivers when development is incomplete, and (3) waivers over $2,000 are
reviewed by supervisors before a decision becomes final. The Agency agreed with all
three recommendations.

In June 2008, we obtained a data extract from 1 payment record segment identifying
11,154 overpayment waivers totaling $8.1 million that SSA approved from
October 1, 2006 through June 23, 2008. We reviewed a sample of these waivers to
determine whether SSA documented and approved the waivers in accordance with SSA
policies. When we initiated the audit, SSA policy required that requests for
overpayments exceeding $500 be documented on Form SSA-632-BK (Request for
Waiver of Overpayment or Overpayment Recovery or Change in Repayment Rate)
except when equivalent information, in writing and over the individual’s signature (or that
of his or her representative payee, legal counsel, or other appointed representative),
was on file. 5 SSA could administratively discontinue recovery of amounts $500 or less.
Effective September 27, 2008, SSA increased the limit on administrative discontinuation
of overpayment recovery from $500 to $1,000. This change applied to all requests for
waiver pending or received on or after
September 27, 2008. Because all waivers included as part of this review were
approved before the policy change, we applied the waiver criteria in effect when the
waivers were approved. The scope and methodology of our review is described in
Appendix C.




4
    OMB Circular A-123, Management Accountability and Control (June 21, 1995).
5
 SSA, Program Operations Manual System (POMS), SI 02260.005A.2, Completing the SSA-632-BK
(Request for Waiver of Overpayment or Overpayment Recovery or Change in Repayment Rate).
Page 3 - The Commissioner


RESULTS OF REVIEW
SSA appears to have made little progress correcting the problems identified in our
2004 report. SSA implemented a process to ensure waivers over $2,000 were
approved by two SSA employees. However, our review of 200 approved waivers
between $500.01 and $19,999.99 and all 10 approved waivers $20,000 or more
disclosed the following.

   Documentation was not available to support 95 (45 percent).

   SSA could not provide complete case folders to support another 38 (18 percent).

   Available documentation supporting four (2 percent) indicated SSA should have
    denied the waiver requests.


                            Summary of Supplemental Security Income
                             Overpayment Waiver Approvals Reviewed
                                              Unsupported
                                                Waivers
                                               (45 Percent)




          No Case Folder
             Provided
             (18 Percent)
                                                              Supported
                      Supported But                            Waivers
                      Inappropriately                         (35 Percent)
                         Approved
                             (2 Percent)




The percentages in the chart are similar to those discussed in our 2004 report. Based
on our sample results, we estimate the amount of unsupported approved waiver
decisions totaled approximately $55.5 million for about 28,380 approved waivers
between $500.01 and $19,999.99 and approximately $650,000 for about 20 approved
waivers of $20,000 or more. Because SSA could not provide complete case folders for
38 sample items and no electronic documentation supporting these decisions was
maintained, we could not assess the appropriateness of these decisions. Therefore, we
estimate SSA could not provide complete case folders to support 12,520 waiver
decisions totaling approximately $20.1 million. Further details regarding our sampling
projections are included in Appendix D.
Page 4 - The Commissioner


UNSUPPORTED WAIVER DECISIONS

SSA did not always document waiver development and could not always provide the
evidence or information used for waiver approvals. Our review disclosed the following.

   For 172 of the 210 approved waivers reviewed, hard copy folders and/or electronic
    documentation supporting the waiver decision were available for review.

     SSA did not maintain required documentation to support 95 approval decisions.
      We considered waiver decisions to be inadequately supported if the required
      documentation for the waiver decision was missing or if significant portions of the
      waiver documentation were not completed (for example, sections of
      Form SSA-632-BK were left blank).

     SSA obtained and maintained documentation to support 77 approval decisions.
      According to SSA policy, a recipient’s request for overpayment recovery must be
      documented except when the overpayment was caused by the recipient’s
      resources exceeding the resource limit by $50 or less. 6 However, in
      four instances, the facts and circumstances described in the supporting
      documentation indicated the waiver should have been denied. 7

   For 38 of the 210 approved waivers reviewed, SSA was unable to provide complete
    documentation to support waiver decisions. For each of these recipients, we
    searched SSA’s Claims File Records Management System, Modernized
    Supplemental Security Income Claims System (MSSICS), and eView, and found no
    documentation supporting or justifying the waiver. Realizing that supporting
    documentation could be included in hardcopy case folders, we made several
    unsuccessful attempts to obtain the folders from the claimant’s servicing
    district offices, the folder’s current and previous locations, and the Automated Folder
    Location Website. Therefore, we could not assess the support for approved waivers
    totaling $107,110 made on behalf of these 38 recipients.

According to SSA, field offices and teleservice centers send post-eligibility documents,
such as waiver documentation, to the Wilkes-Barre Folder Servicing Operations. After
keying the information into the system, Wilkes-Barre sends the documents to
Philadelphia for long-term storage. SSA further stated that documentation could not be
located because (1) retrieving folders from the Wilkes-Barre Folder Servicing Operation
is not always reliable, (2) the creation of multiple folders complicates locating post-
eligibility documents or (3) recording of folder movement is error-prone or not updated.



6
 SSA, POMS, SI 02260.005A.2.c, and SI 02260.035A.1.a, Individual’s Countable Resources Exceed
Limit By $50.00 or Less.
7
  We did not provide a projection associated with inappropriately approved waivers because of a low error
rate (2 percent of all sample items reviewed).
Page 5 - The Commissioner


Without adequate supporting documentation, SSA has no assurance that overpayment
waivers were valid. Noncompliance with established management controls weakens
the integrity of the waiver process and makes it susceptible to fraud, waste, and
mismanagement.

WAIVER DECISIONS APPROVED CONTRARY TO SSA POLICY

SSA approved four overpayment waivers totaling $15,637 although available
documentation established the recipients were at fault. Two examples follow.

     SSA overpaid one recipient $3,677 because she failed to report an increase in
      wages received between July 2007 and February 2008. Available documentation
      indicated the recipient earned wages that, if reported to SSA, would have affected
      her SSI eligibility. When completing the waiver request, the individual responded to
      the question, “Explain why you believe you should not have to return this amount?”
      by stating “Because I’m still struggling understanding the whole procedure of my live
      [sic].” In addition, when asked “Why did you think you were due the overpaid money
      and why do you think you were not at fault in causing the overpayment or accepting
      the money?”, she responded, “No one inform me [sic].” The individual also indicated
      that she had not previously been overpaid by SSA. However, review of available
      records indicated SSA waived two previous overpayments to this individual that
      resulted from underreporting of wages.

     SSA overpaid another recipient $10,730 because she failed to disclose ownership of
      life insurance policies with cash surrender values over the SSI resource limit when
      she applied for SSI. Upon denying the initial waiver request, an SSA employee
      recorded a note in MSSICS that stated the claimant “. . . is a chronic non-informer
      and has been given numerous oppertunities [sic] to report income and resources
      timely.” However, upon reconsideration, an SSA employee approved the waiver
      request without explanation.

According to SSA policy, waiver requests should only be approved when the liable
person is without fault in causing the overpayment. 8 SSA policy also states the burden
of establishing a lack of fault lies with the individual. 9 Situations that indicate fault
include willful misstatements or concealment of material facts or fraud that directly or
indirectly caused the overpayment, and the claimant’s knowledge of a similar
overpayment that occurred in the past and his/her obligation to report the
overpayment. 10 The waiver documentation in the file did not indicate SSA employees
considered the recipients’ concealment of facts or knowledge of similar overpayments

8
    SSA, POMS, SI 02201.005A.5.c, SSI – What Is an Overpayment?
9
 SSA, POMS, SI 02260.015A, Establishing Without Fault for a Supplemental Security Income (SSI)
Overpayment.
10
  SSA, POMS, SI 02260.010B.5.a and SI 02260.010B.5.e, Development of Without Fault for a
Supplemental Security Income (SSI) Overpayment Waiver.
Page 6 - The Commissioner


before approving these waivers. Waiver decisions approved contrary to SSA policy
eliminate the possibility of collecting improper payments and impose an unnecessary
burden on taxpayer dollars.

CONCLUSION AND RECOMMENDATION
SSA established management controls over the SSI overpayment waiver process
designed to prevent fraud, waste, and abuse. However, we found that waiver
documentation was not always properly maintained or completed, and some waivers
were approved contrary to SSA policy. Without adequate supporting documentation,
there is no assurance that SSA complied with its management controls for overpayment
waivers, weakening the integrity of the process and making the waiver process
susceptible to fraud, waste, and mismanagement.

We recommend that SSA consider providing refresher training for staff involved in the
waiver decision process to include instructions on developing fault, approving waivers
only when development is complete, and documenting waiver decisions in accordance
with established policy.

AGENCY COMMENTS
SSA agreed with our recommendation. The Agency’s comments are included in
Appendix E.



                                               S
                                               Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Title XVI Overpayment Waiver Procedures
APPENDIX C – Scope and Methodology
APPENDIX D – Sampling Methodology and Results
APPENDIX E – Agency Comments
APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                       Appendix A

Acronyms
C.F.R.   Code of Federal Regulations
CFRMS    Claims File Records Management System
EF       Electronic Folder
MSSICS   Modernized Supplemental Security Income Claims System
OMB      Office of Management and Budget
POMS     Program Operations Manual System
SSA      Social Security Administration
SSI      Supplemental Security Income
                                                                             Appendix B

Title XVI Overpayment Waiver Procedures
According to Social Security Administration (SSA) policy, a recipient’s request for an
overpayment waiver must be documented except if the overpayment was caused by the
recipient’s resources exceeding the resource limit by $50 or less. 1 Form SSA-632-BK
(Request for Waiver of Overpayment or Overpayment Recovery or Change in
Repayment Rate) is used to obtain sufficient information from the recipient about fault
and financial circumstances to make a waiver decision. 2 SSA may accept similar
information about fault and financial circumstances in place of Form SSA-632-BK.




1
    SSA, Program Operations Manual System (POMS), SI 02260.005C.3, and SI 02260.035A.1.a.
2
    SSA, POMS, SI 02260.005A.1 and SI 02260.005A.2.


                                                B-1
DOCUMENTATION STORAGE LOCATION

SSA policy states that waiver documents are retained until the paper claims file is
destroyed. 3 In addition to being stored in the traditional paper claims file, waiver
documents can be maintained electronically via the Claims File Records Management
System (CFRMS) and eView. SSA uses CFRMS to electronically manage claims files
and supporting documents. It provides a consolidated view of the electronic folder.
CFRMS also provides the ability to access, track, maintain, audit, and destroy electronic
claims folders. EView is a Web-based application that enables users to view and/or
print the disability information in the electronic folder. When the electronic process is
fully implemented, both initial claims and post-entitlement actions will be maintained in
the electronic folder. 4 While the traditional paper folder, CFRMS, and eView serve to
maintain overpayment documentation, the resolution of Supplemental Security Income
(SSI) overpayments must be documented via the Modernized Supplemental Security
Income Claims System (MSSICS). SSA uses MSSICS to input the level and type of
overpayment decisions. All decisions must be coded in MSSICS through direct
Supplemental Security Record update. 5 The status of overpayment development is
documented on the Supplemental Security Record.

DETERMINATION OF FAULT

In determining fault, SSA must consider all circumstances surrounding the
overpayment. Among other factors, SSA evaluates the recipient’s comprehension and
mental capacity to understand and comply with reporting responsibilities for the SSI
program. The recipient will be found at fault in the following situations:

     failure to furnish information the recipient knew or should have known was material;

     an incorrect statement made by the recipient, which he knew or should have known
      was incorrect; or

     the individual did not return a payment, which he knew or could have been expected
      to know, was incorrect. 6




3
    SSA, POMS, GN 01085.025, Exhibit – Retention Periods for Program-Related Forms.
4
    SSA, POMS, DI 80830.010, Electronic Folder (EF).
5
    SSA, POMS, SI 02220.005C.2, Documenting the Supplemental Security Income (SSI) Overpayment.
6
    20 C.F.R. § 416.552.


                                                  B-2
DEFEATS THE PURPOSE OF SSI

Recovery of an overpayment would defeat the purpose of SSI if the individual’s income
and resources are needed for ordinary and necessary living expenses; and, for a
currently eligible individual, if the individual’s income (including any deemed income)
does not exceed the

     Federal benefit rate; plus
     $20 general exclusion; plus
     $65 earned income exclusion; plus
     Federally administered State supplementary payment (if any). 7

AGAINST EQUITY AND GOOD CONSCIENCE

Recovery of an overpayment is against equity and good conscience if an individual
changed his or her position for the worse or relinquished a valuable right upon reliance
that a payment would be made or was incorrect. It is also against equity and good
conscience to collect any part of an overpayment not received by a member of an
eligible couple who was legally separated and/or living apart during the overpayment
period. 8 Examples include situations where the individual incurred additional expenses,
such as increased rental liability or college expenses, or if the individual failed to take
advantage of a private or organization charity relying instead on the award of SSI
payments for support.

IMPEDE EFFECTIVE OR EFFICIENT ADMINISTRATION

Recovery of an overpayment impedes effective or efficient administration when the
nation-wide average cost of recovering the overpayment equals or exceeds the amount
of the overpayment. During the timeframe covered by the audit (October 2006 though
June 2008), administrative discontinuation of waiver development applied solely to
overpayments of less than $500.01. Effective September 2008, SSA increased the limit
on administrative discontinuation of waiver development from $500.00 to $1,000.00.
The change applied to all requests for waiver pending or received after
September 27, 2008. 9



7
    20 C.F.R. § 416.553.
8
    20 C.F.R. § 416.554.
9
    SSA, POMS, SI 02260.030, Impede Effective or Efficient Administration of Title XVI of the Act.




                                                     B-3
                                                                        Appendix C

Scope and Methodology
We reviewed 200 statistically selected overpayment waiver requests identified from
1 of 20 Supplemental Security Record segments and approved from October 1, 2006
through June 23, 2008. Our sample included 100 overpayment waiver requests of
$500.01 to $2,000, and 100 overpayment waiver requests of $2,000.01 to $19,999.99.
We also selected the entire population of 10 overpayment waivers $20,000 or more.
We reviewed each overpayment waiver for appropriateness as defined in the Program
Operations Manual System, reliability of data in the Supplemental Security Record, and
existence of supporting documentation. We also:

   Reviewed applicable Federal regulations governing overpayment waivers under
    Title XVI of the Social Security Act.

   Interviewed Social Security Administration (SSA) staff regarding procedures for
    developing an overpayment decision.

   Reviewed prior Office of the Inspector General reports pertaining to Supplemental
    Security Income overpayment waivers.

   Requested and reviewed case files from the Current Folder Location, Previous
    Folder Location, Servicing District Office, other possible locations referred to us from
    previous contacted locations, and the Automated Folder Location Web Site.

   Queried and reviewed overpayment waiver information for sample items from SSA’s
    Modernized Supplemental Security Income Claims System, Claims Folder Records
    Management System, and Phone Directories.

We conducted field work from August 2008 through March 2009 at SSA’s Regional
Office in Dallas, Texas. The entity audited was the Office of Income Security Programs
under the Deputy Commissioner for Retirement and Disability Policy. We conducted
this audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We tested the data obtained for our audit and determined it was
sufficiently reliable to meet our objective. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.
                                                                               Appendix D

Sampling Methodology and Results
                              SAMPLE POPULATION
             FROM 1 OF 20 SUPPLEMENTAL SECURITY RECORD SEGMENTS
                     FISCAL YEAR 2007 THROUGH JUNE 23, 2008
                                       Number of Approved
                 Strata                 Waiver Decisions                Dollar Amount
       $500.01 to $2,000.00                  2,209                          $2,022,758
       $2,000.01 to $19,999.99                 681                          $4,189,348
       $20,000 or more                           10                           $248,876
        Totals                               2,900                          $6,460,982

We selected a stratified statistical sample of 200 waiver requests from 1 segment of the
Supplemental Security Record from Fiscal Year 2007 through June 23, 2008. We
selected 100 items where the waiver request was $500.01 through $2,000 (strata 1) and
100 items where the waiver request was $2,000.01 through $19,999.99 (strata 2).
Strata 1 included 1,480 approved waivers (67 percent) of $1,000 or less. These
waivers comprised $991,775 (49 percent) of the total dollar value of Strata 1 waiver
decisions. There were 10 waiver decisions of $20,000 or more from FY 2007 through
June 23, 2008 and we selected all 10 decisions for review.

     Attribute Appraisal: Unsupported Approved Waiver Decisions $500.01 to $19,999.99
                                                                    Strata 1    Strata 2       Total
Sample Size                                                            100          100           200
Number of Unsupported Approved Waivers                                   51           43           94
Total Population for Segment                                         2,209          681         2,890
Projection of Unsupported Approved Waivers in Segment Population:
     Point Estimate                                                  1,127          293         1,419*
     Lower Limit                                                                                1,234
     Upper Limit                                                                                1,605
Estimate of Unsupported Approved Waivers in all 20 Segments                                    28,380
All projections are at the 90-percent confidence level.
* Difference due to rounding

      Variable Appraisal: Unsupported Approved Waiver Decisions $500.01 to $19,999.99
                                                                  Strata 1     Strata 2         Total
Sample Size                                                          100           100           200
Number of Unsupported Approved Waivers                               51             43            94
Total Population for Segment                                        2,209          681          2,890
Total Dollars of Unsupported Approved Waivers in Sample            $43,824      $265,638      $309,462
Projection of Unsupported Approved Waivers in Segment Population:
     Point Estimate                                               $968,078     $1,808,997    $2,777,075
     Lower Limit                                                                             $2,298,627
     Upper Limit                                                                             $3,255,523
Estimate of Unsupported Approved Waivers in all 20 Segments                                 $55,541,500
All projections are at the 90-percent confidence level.


                                               D-1
        Attribute Appraisal: Waiver Decisions $500.01 to $19,999.99 Without Case Files
                                                                     Strata 1    Strata 2       Total
Sample Size                                                              100         100            200
Number of Unsupported Approved Waivers                                    24          14             38
Total Population for Segment                                           2,209         681          2,890
Projection of Unsupported Approved Waivers in Segment Population:
     Point Estimate                                                     530           95            626*
     Lower Limit                                                                                    469
     Upper Limit                                                                                    812
Estimate of Unsupported Approved Waivers in all 20 Segments                                      12,520
All projections are at the 90-percent confidence level.
* Difference due to rounding

        Variable Appraisal: Waiver Decisions $500.01 to $19,999.99 Without Case Files
                                                                     Strata 1    Strata 2       Total
Sample Size                                                                100        100            200
Number of Unsupported Approved Waivers                                      24          14            38
Total Population for Segment                                             2,209        681          2,890
Total Dollars of Unsupported Approved Waivers in Sample               $19,189     $87,920       $107,109
Projection of Unsupported Approved Waivers in Segment Population:
     Point Estimate                                                  $423,887    $598,741     $1,022,628
     Lower Limit                                                                               $731,186
     Upper Limit                                                                              $1,314,070
Estimate of Unsupported Approved Waivers in all 20 Segments                                  $20,052,560
All projections are at the 90-percent confidence level.

                    Unsupported Approved Waiver Decisions $20,000 or More
Total Segment Population                                                                              10
Number Reviewed                                                                                       10
Number of Unsupported Waiver Approvals                                                                 1
Total Dollars of Unsupported Approved Waivers Reviewed                                           $32,492
Estimate of Unsupported Approved Waivers in all 20 Segments                                           20
Estimated Value of Unsupported Approved Waivers in all 20 Segments                              $649,840

All the waivers above $20,000 had case folders; therefore, there are no projections for
approved waivers above $20,000 without case files.




                                               D-2
                  Appendix E

Agency Comments
                                        SOCIAL SECURITY

MEMORANDUM


Date:      August 14, 2009                                                      Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Margaret J. Tittel /s/
           Acting Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Follow-Up: The Social Security
           Administration’s Controls over the Title XVI Overpayment Waiver Process”
           (A-06-08-18078)--INFORMATION


           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. Attached is our response to the report recommendation.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.


           Attachment




                                                        E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S DRAFT REPORT,
“FOLLOW-UP: THE SOCIAL SECURITY ADMINISTRATION’S CONTROLS OVER
THE TITLE XVI OVERPAYMENT WAIVER PROCESS” (A-06-08-18078)

Our response to your specific recommendation is as follows.

Recommendation 1

Consider providing refresher training for staff involved in the waiver decision process to include
instructions on developing fault, approving waivers only when development is complete, and
documenting waiver decisions in accordance with established policy.

Comment

We agree. On June 22, 2009, we released our Annual Security Reminders (AM-09080), which
included a reminder to properly approve and document all waivers. Further, we are currently
working on a comprehensive Title XVI waiver refresher training package that will include
written instructions and an Interactive Video Teletraining/Video On Demand broadcast. We
expect to complete the training package and be ready for broadcast by December 2009.




                                               E-2
                                                                        Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Ron Gunia, Director, Dallas Audit Division

   Jason Arrington, Audit Manager

Acknowledgments

In addition to those named above:

   Ashley Moore, Auditor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Staff Assistant at
(410) 965-4518. Refer to Common Identification Number A-06-08-18078.
                                 DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions and
Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
